         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Hotline Report



       Results of
       Hotline Complaint Review
       for California Superfund Site
       Report No. 09-P-0131

       March 31, 2009
Report Contributors:       Jee Kim
                           Dave Goodman
                           Carolyn Copper




Abbreviations

CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
CTS          CTS Corporation
EPA          U.S. Environmental Protection Agency
MNA          Monitored Natural Attenuation
OIG          Office of Inspector General
PRP          Potentially Responsible Party
ROD          Record of Decision
RWQCB        California Regional Water Quality Control Board




Cover photo: New housing development built on the former CTS Printex Superfund Site,
             Mountain View, California. (EPA OIG photo)
                         U.S. Environmental Protection Agency                                                   09-P-0131
                                                                                                            March 31, 2009
                         Office of Inspector General


                         At a Glance
                                                                               Catalyst for Improving the Environment


Why We Did This Review                  Results of Hotline Complaint Review
The Office of Inspector General
                                        for California Superfund Site
(OIG) received a Hotline
complaint that alleged                   What We Found
mismanagement and abuse of
authority regarding the U.S.            We substantiated that Region 9 inappropriately charged oversight costs to the
Environmental Protection                CTS Printex Site responsible parties for greening activities and other activities.
Agency (EPA) Region 9’s                 Region 9 charged the responsible parties for costs associated with staff time
management of specific activities       spent reviewing a housing developer’s use of “green building practices.”
at the CTS Printex Superfund            Region 9 also charged the site account for its time spent responding to and
Site in Mountain View,                  preparing for our review. These activities are outside the intended scope of the
California.                             cost recovery agreement between Region 9 and the CTS Printex Site
                                        responsible parties and also do not meet a criterion a Region 9 manager said
Background                              was used in determining appropriate oversight costs.

The site is currently on the            We could not substantiate claims that Region 9 expanded the definition of the
Superfund National Priorities           CTS Printex Site beyond that described in EPA’s 1991 clean-up decision
List. It was added to the list in       document (the ROD). In addition, we could not substantiate claims that other
1990 to address groundwater             clean-up agreements were reached or implemented, such as use of a “Multiple
contamination that resulted from        Sources Strategy.”
years of circuit board
manufacturing operations at the         We also found that Region 9 has not taken appropriate steps to timely amend
site. The Hotline allegations the       the 1991 ROD despite significant remedy and land use changes at the site.
OIG reviewed are that: (1) EPA          New human health risks have been identified (vapor intrusion) that were not
Region 9 inappropriately charged        addressed in the 1991 ROD. Following appropriate procedures is critically
the responsible parties for             important given that private residences have been built on top of the CTS
oversight costs associated with a       Printex Site.
housing development that is
currently being built on the site;       What We Recommend
and (2) Region 9 has
inappropriately expanded the            We recommend that Region 9 identify and withdraw all past charges that are
definition of the site, which has       inconsistent with the meaning of “oversight costs.” The Region should develop
complicated the responsible             and implement procedures to ensure that staff consistently and appropriately
parties’ clean-up of the site.          charge oversight costs. We also recommend that the Region amend the 1991
                                        Site ROD, develop a cost recovery strategy, and review Agency policies and
For further information, contact        procedures to properly and timely recover the government's costs from
our Office of Congressional,            appropriate parties for the ROD amendment work. Region 9 agreed to assume
Public Affairs and Management           the work to complete the ROD amendment and has agreed to withdraw
at (202) 566-2391.
                                        inappropriate oversight charges. The Region’s corrective actions to address
To view the full report, click on the   future cost recovery issues and review other oversight charges are undecided
following link:                         and should be addressed in its final response to this report.
www.epa.gov/oig/reports/2009/
20090331-09-P-0131.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL




                                         March 31, 2009

MEMORANDUM

SUBJECT:               Results of Hotline Complaint Review for California Superfund Site
                       Report No. 09-P-0131


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Laura Yoshii
                       Acting Region 9 Administrator


This is our Hotline report on the subject evaluation conducted by the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). This report contains findings that
describe the problems that OIG has identified and corrective actions that OIG recommends. The
OIG responded to EPA Region 9’s draft report comments by making changes to the report,
providing responses to Region 9 as appropriate, and conducting an exit conference to discuss
OIG responses. This report represents the opinion of the OIG and does not necessarily represent
the final EPA position. Final determinations on matters in this report will be made by EPA
managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $128,038.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov; or Jee Kim, Project Manager, at (202) 566-2912 or kim.jee@epa.gov.
Results of Hotline Complaint Review                                                                                            09-P-0131
for California Superfund Site




                                      Table of Contents
   Purpose........................................................................................................................    1

   Background .................................................................................................................       1

   Scope and Methodology.............................................................................................                2

   Results of Review .......................................................................................................          2

           Region 9 Inappropriately Charged Oversight Costs to Responsible Parties........                                           2
           Site Clean-up Remedy and Land Use Significantly Changed,
                 But Key Requirements Were Not Followed .................................................                            3
           Site Definition in the 1991 ROD Has Not Been Modified by Region 9 .................                                       4

   Conclusions.................................................................................................................       5

   Recommendations ......................................................................................................             5

   EPA Region 9 Responses and OIG Evaluation ........................................................                                6

   Status of Recommendations and Potential Monetary Benefits..............................                                           7



Appendices
   A       Region 9 Comments on Draft Report and OIG Evaluation .............................                                        8

   B       Distribution .........................................................................................................    20
                                                                                         09-P-0131


Purpose

On March 13, 2008, the U.S. Environmental Protection Agency (EPA) Office of Inspector
General (OIG) received an allegation against EPA Region 9, complaining of continued
mismanagement and abuse of authority, as it relates to the CTS Printex Superfund Site in
Mountain View, California. Based on information provided in the complaint, we addressed the
following objectives:

   •   Determine whether oversight costs accrued in meetings with the current developer of the
       site are validly billed to CTS under the Record of Decision (ROD) of 1991 and the
       consent decree of 1994.

   •   Determine whether EPA has validly “expanded” the site definition to include releases
       from other sites that have compromised the responsible parties’ ability to achieve
       clean-up goals.

Background

The CTS Printex Superfund Site was used to manufacture printed circuit boards between 1966
and 1985. Operations at the site resulted in groundwater contamination from volatile organic
compounds, both inside and outside the site property boundary. Also, high levels of copper and
lead were found in soil on the site. In 1985, initial response actions to address contaminated soil
and groundwater were conducted by the former site operator and responsible party – CTS
Corporation (CTS). The former owner of the CTS Printex property – ADN/Nearon Enterprises –
is also a responsible party.

In 1990, EPA listed the CTS Printex Site on the National Priorities List. The California Regional
Water Quality Control Board (RWQCB) was designated as the lead oversight Agency at the time
the site was listed. RWQCB remained the lead agency until the site was transferred back to
Region 9 in 2006.

The 1991 clean-up decision (the ROD) was to operate an existing groundwater extraction system
to clean up impacted groundwater to drinking water standards. In 1994, Region 9 and the
responsible parties entered into a consent decree that generally characterized the clean-up and
oversight costs for which the responsible parties were accountable. The clean-up decision was
to continue groundwater extraction until the Maximum Contaminant Levels for designated
contaminants at the site were met. As of January 2009, the Maximum Contaminant Levels had
not been met at the site.

Plymouth Colony LLC purchased the CTS Printex property in 2006. Later that year,
Regis Homes, a housing developer, began redeveloping the property for residential
purposes. As of December 2008, construction of all residential units was approximately
30 percent complete. In preparing the site for residential use, Regis Homes removed
some material from the site and incorporated vapor intrusion mitigation systems in the
construction of the new homes.



                                                 1
                                                                                          09-P-0131




Scope and Methodology
We conducted our work from October 2008 to March 2009 in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform our
review to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives. An assessment of
management or internal controls was not germane to this review and was not conducted.

To accomplish our objectives, we:

   •   reviewed and analyzed site documents provided by the complainant, Region 9, and
       RWQCB;
   •   conducted interviews with relevant Region 9 and RWQCB staff;
   •   conducted a site visit at the CTS Printex Site and interviewed a consultant for the
       residential developer of the site;
   •   reviewed and analyzed site development documents provided by Regis Homes
       representatives/consultants;
   •   reviewed and analyzed EPA policy documents on relevant issue areas provided by EPA’s
       Office of Superfund Remediation and Enforcement;
   •   reviewed and analyzed appropriate sections of the Comprehensive Environmental
       Response, Compensation, and Liability Act (CERCLA) and the National Contingency
       Plan; and
   •   reviewed and analyzed relevant site administrative documents (i.e., ROD, consent decree,
       Clean-up and Abatement Orders, Five-Year Reviews, and billing statements) provided by
       Region 9 and available in Region 9’s Superfund Document Management System.

The documentation we received did not allow us to quantify or to determine all potentially
inappropriate charges.

Results of Review

Region 9 Inappropriately Charged Oversight Costs to Responsible Parties

EPA Region 9 inappropriately charged the responsible parties for activities that are inconsistent
with the meaning of “oversight costs” as defined in the 1994 consent decree and a criterion the
Region said it used. The Region’s oversight of “greening” efforts of the site developer is
unrelated to decisions or activities to ensure that the site remedy remains protective. In addition,
the Region’s time spent preparing for and responding to OIG requests associated with this review
are unrelated to decisions or activities to ensure that the site remedy remains protective.

A Region 9 site attorney informed us that all of the Region’s oversight charges at the site were
related to activities to ensure that the remedy remains protective of human health and the
environment. However, some of the Region’s oversight charges were unrelated to ensuring that


                                                 2
                                                                                                  09-P-0131


the site remedy remains protective of human health and the environment. A former site project
manager requested and received from the site developer information on “green building
practices” that were to be incorporated into construction of the new homes. This information is
unrelated to ensuring that the site remedy is protective to human health and the environment.
The project manager’s request was not conducted in response to an Agency or regional request
or a work assignment. The project manager stated that she did not share the information she
gathered with other staff in Region 9 or EPA Headquarters. The project manager stated that she
charged her time associated with this request to the responsible parties. During our review, we
discovered that the Region had also been charging the site account for its time spent preparing
for and responding to this OIG review. In addition, we learned that, in response to a complaint
by a responsible party, Region 9 waived staff attorney charges related to work done by the
Agency for Toxic Substances and Disease Registry at the site between January 1, 2004, and
December 31, 2005. These activities are unrelated to decisions or activities to ensure that the site
remedy remains protective and are administrative responsibilities.

At our request, the Region reviewed the “green building practices” and charges for time relating
to OIG’s review and retroactively agreed to remove the charges. The billing documents
provided by Region 9 did not allow the OIG to identify all potentially inappropriate charges.

Site Clean-up Remedy and Land Use Significantly Changed,
But Key Requirements Were Not Followed

The site remedy – groundwater extraction – had begun in 1987 but ceased in 1996 in
favor of monitored natural attenuation. The extraction system was terminated based on
CTS’ and RWQCB’s joint determination that the level of contaminants in the
groundwater plume had reached consistently low levels. In 2006, land use had changed
at the site from commercial/industrial to residential. The 2005 Five-Year Review
identified vapor intrusion as a risk associated with residential use, and vapor intrusion
mitigation systems were incorporated into construction of the new residences. However,
as of December 2008, no ROD amendment has been drafted or executed by Region 9.
Therefore, there was no Agency documentation to note the change in the site remedy or
the significant land use change, and to describe remedial action objectives to ensure that
the modified remedy remains safe and protects human health and the environment in the
long-term. In 2005, Region 9 recognized the potential need for a ROD amendment to
establish new remedial actions to address vapor intrusion, but it did not designate a
milestone for starting or completing this work.

Agency guidance stresses the importance of transparency in Superfund site-related decision-
making and presents methods for categorizing ROD changes and the ways in which changes
should be documented.1 Region 9 has not followed Agency guidance in managing the remedy
change at the CTS Printex site. EPA’s guidance classifies monitored natural attenuation as a
contingency remedy that, if detailed in the ROD, can be invoked through the issuance of an
Explanation of Significant Differences document. The guidance further recommends that if a
contingency remedy or criteria for its selection are not well documented in the ROD, a ROD

1
 Guide to Preparing Superfund Proposed Plans, Records of Decision, and Other Remedy Selection Decision
Documents,” EPA 540-R-98-031, OSWER 9200.1-23P, July 1999.


                                                     3
                                                                                         09-P-0131


amendment may be required to invoke the contingency remedy at a later time. The 1991 ROD
neither detailed monitored natural attenuation as a contingency remedy nor provided criteria for
its selection.

In the 2005 Five-Year Review, Region 9 concurred with recommendations for a ROD
amendment. The Five-Year Review stated that:

       If the land use changes from the current commercial/industrial use to residential
       use, a comprehensive indoor air evaluation for residential use and re-evaluation
       of the remedy selected in the ROD should be completed to ensure long-term
       protectiveness. The ROD should be amended as necessary.

Further, the Five-Year Review discussed vapor intrusion as a specific pathway of concern
into current and future buildings. The Five-Year Review recommended that since clean-
up goals for vapor intrusion were not established in the 1991 ROD, a ROD amendment
may be needed to establish appropriate clean-up goals and long-term actions to address
risks from vapor intrusion.

In response to this report, the Region committed to assume responsibility for the work
necessary to issue two ROD amendments at the CTS Printex Site. June 30, 2010, is the
target date for issuing the first ROD amendment. This first amendment will address the
changed land use, the vapor intrusion risk, and the need for new institutional controls.
March 30, 2011, is the target date for the second ROD amendment. It will address the
groundwater remedy. Region 9 also provided interim milestone dates for completing
activities that lead up to issuing the ROD amendments.

Site Definition in the 1991 ROD Has Not Been Modified by Region 9

The site definition described in the 1991 ROD, in accordance with CERCLA, includes areas
where contaminants have “otherwise come to be located.” In the case of the CTS Printex Site,
this included the extent of the contaminated groundwater plume. This groundwater plume
extends beyond the CTS Printex property boundary. Areas beyond that boundary were alleged
by the complainant to be “off-site” and not included in the original site definition. However, in
the 1991 ROD site definition, Region 9 appropriately included areas beyond the CTS Printex
property boundary based on the extent of groundwater contamination.

According to CERCLA Section 101(9)(B), a site (or "facility") includes not only the building or
structure but also any site or area where a hazardous substance has "otherwise come to be
located." The 1991 ROD states that the contaminated groundwater plume spread beyond the
physical boundaries of the CTS Printex property. As a result, the site was defined to include the
extent of the contaminated plume.

In addition to the 1991 ROD, the RWQCB documented its clean-up decision in a 1991 Clean-up
and Abatement Order. The order indicates, but does not definitely conclude, that other parties
could be the source of some of the contamination in the Printex groundwater plume. Since that
time, it has not been conclusively determined that, as alleged, there are multiple sources for the


                                                4
                                                                                           09-P-0131


contaminants in the Printex groundwater plume. We found no substantiating evidence that the
RWQCB or Region 9 made agreements to apply a “Multiple Sources Strategy” to the clean-up of
the site. Region 9 disclosed in the 2005 Five-Year Review that there may be other sources of
contamination in the Printex groundwater plume. The Region stated that these sources should be
investigated and they were to conduct oversight for the assessment of potential sources in the
vicinity of monitoring well 17. This activity was scheduled to be completed in 2007-2008. In
November 2008, Region 9 staff said that there was no ongoing activity to determine if there were
other sources in the Printex groundwater plume, but that additional testing at monitoring well 17
would occur in December 2008 or January 2009.

Conclusions

We substantiated that Region 9 inappropriately charged oversight costs to the CTS Printex Site
responsible parties for greening activities and other activities that are inconsistent with the
meaning of “oversight costs” as defined in the 1994 consent decree. The criterion that the
Region stated it uses in determining appropriate oversight costs to bill the responsible parties is
not consistently used. Agency guidance stresses that Regions should “give careful consideration
to the associated costs being charged to PRPs” and should engage in “good working
relationships” with responsible parties. The examples of inappropriate oversight charging by
Region 9 staff, indicates weak controls over oversight charging. The Region should ensure that
all staff that charge time to the Site do so consistently and appropriately, base charges on criteria
in cost recovery agreements, and adhere to Agency guidance on oversight and billing of
responsible parties.

We cannot substantiate claims that Region 9 has expanded the definition of the CTS Printex Site
beyond that described in the 1991 ROD or that other agreements regarding the clean-up approach
were made, such as use of a “Multiple Sources Strategy.”

In the course of our review, we found that Region 9 has not taken appropriate steps to timely
amend the 1991 ROD despite significant remedy and land use changes at the CTS Printex Site.
Procedures for assuring that the site’s remedial actions provide long-term safety and protection
were recommended in the site’s 2005 Five-Year Review but have not been implemented. New
human health risks have been identified (vapor intrusion) that were not addressed in the 1991
ROD. Following appropriate procedures is critically important given that private residences
have been built on top of the CTS Printex Site.

Recommendations
We recommend that the Region 9 Administrator:

   1. Identify and withdraw all past charges that are inconsistent with the meaning of
      “oversight costs” as defined in the 1994 consent decree. These include, but may not be
      limited to, charges associated with “green building practices” and charges associated with
      Region 9 staff time spent preparing for and responding to OIG reviews.




                                                  5
                                                                                         09-P-0131


   2. Develop and implement procedures to ensure that all Region 9 staff that charge time to
      the Site consistently and appropriately charge oversight costs based on criteria in cost
      recovery agreements and adhere to Agency guidance on oversight and billing of
      responsible parties.

   3. Amend the 1991 ROD for the CTS Printex Site as recommended in the 2005 Five-Year
      Review.

   4. Develop a cost recovery strategy and review Agency policies and procedures in order to
      properly and timely recover the government's costs from all appropriate parties associated
      with the ROD amendment work.

EPA Region 9 Responses and OIG Evaluation

The OIG reviewed and considered Region 9’s comments and we held a meeting to discuss the
Region’s comments. We made revisions to the report where appropriate. Region 9’s comments
and the OIG’s evaluation of those comments are in Appendix A. Region 9 partially agreed with
Recommendation 1 and agreed with Recommendation 3. Based on our review of the Region’s
comments on Recommendation 1, we modified the original recommendation. In addition, we
added Recommendations 2 and 4 based on the Region’s comments and the corrective actions the
Region proposed to address other recommendations.

The Region has partially completed corrective actions for Recommendation 1. Region 9 agreed
to exclude from its oversight bill the time spent on the subject of “green building practices.” The
Region calculates these costs to be $129.22, for approximately 2 hours of staff time. Region 9
plans to issue a credit to the responsible parties in the next bill but a definite date was not
provided. The Region needs to provide a completion date for this action in its 90-day response
(final response). In addition, on November 13, 2008, the Region agreed to remove all charges to
the site account for staff time spent preparing and responding to this OIG review. On March 6,
2009, the OIG received confirmation from Region 9 of the removal of 93.75 hours of such
charges. The Region needs to provide the dollar value of the 93.75 hours in its final response.
The status of the Region’s corrective actions for identifying other potentially inappropriate past
oversight charges is undecided, with resolution efforts in progress. The Region plans to address
this issue in its final response.

The Region plans to address Recommendation 2 in its final response. The status of the Region’s
corrective actions for this recommendation is undecided with resolution efforts in progress.

The Region agreed with Recommendation 3. After discussion, Region 9 agreed to assume
responsibility for the work necessary to issue two ROD amendments for the Site. The Region
provided an acceptable corrective action plan, including estimated milestone completion dates.
Recommendation 3 is open with agreed-to actions pending.

The Region plans to address Recommendation 4 in its final response. The status of the Region’s
corrective actions for this recommendation is undecided, with resolution efforts in progress.



                                                 6
                                                                                                                                    09-P-0131



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed To
    No.      No.                         Subject                         Status1       Action Official          Date      Amount      Amount

     1        5     Identify and withdraw all past charges that are         U       Region 9 Administrator
                    inconsistent with the meaning of “oversight costs”
                    as defined in the 1994 consent decree. These
                    include, but may not be limited to, charges
                    associated with “green building practices” and
                    charges associated with Region 9 staff time spent
                    preparing for and responding to OIG reviews.

     2        6     Develop and implement procedures to ensure that         U       Region 9 Administrator
                    all Region 9 staff that charge time to the Site
                    consistently and appropriately charge oversight
                    costs based on criteria in cost recovery
                    agreements and adhere to Agency guidance on
                    oversight and billing of responsible parties.

     3        6     Amend the 1991 ROD for the CTS Printex Site as          O       Region 9 Administrator
                    recommended in the 2005 Five-Year Review.

     4        6     Develop a cost recovery strategy and review             U       Region 9 Administrator
                    Agency policies and procedures in order to
                    properly and timely recover the government's costs
                    from all appropriate parties associated with the
                    ROD amendment work.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                7
                                                                                       09-P-0131


                                                                                   Appendix A

                Region 9 Comments on Draft Report
                        and OIG Evaluation


                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          REGION 9
                                                  75 Hawthorne Street
                                                San Francisco, CA 94105

                                                 February 6, 2009

MEMORANDUM

SUBJECT:      Draft Hotline Report:
              Results of Hotline Complaint Review for California Superfund Site
              Project No. OPE-FY-09-0001

FROM:         Nancy Lindsay
              Acting Assistant Regional Administrator
              Management and Technical Services Division

TO:           Carolyn Copper
              Director of Program Evaluation
              Office of the Inspector General

         Thank you for the opportunity to comment on the draft hotline report titled, Results of
Hotline Complaint Review for California Superfund Site (Project No. OPE-FY09-0001), sent to
Region 9 for comment on January 21, 2009. The Report concludes with two recommendations:
the first regarding oversight billing, and the second regarding documentation of the remedy
change at the CTS Printex Superfund Site. Our general comments are outlined in the text below
and specific comments can be found in the attached table.

OIG Recommendation 1: Determine invalid oversight charges previously billed to the
responsible parties that are unrelated to the CTS Printex Site remedy as described in the 1991
ROD and referenced in the 1994 cost recovery agreement, and withdraw such charges.

       As an initial matter, the Region disagrees with the characterization of its oversight
charges as “invalid.” All of the charges EPA has billed to the parties were valid and in
accordance with the 1994 Consent Decree, with the exception of the charges for time spent
discussing “green building practices” with the developer. As we have discussed, the two settling
defendants agreed in the Consent Decree to pay EPA’s “oversight costs.” The definition of
“oversight costs” includes in relevant part the following activities: “reviewing or developing


                                                 8
                                                                                          09-P-0131


plans, reports and other items in connection with the Site, overseeing remedial design or
remedial actions undertaken by persons other than EPA at the Site, or implementing, overseeing,
or enforcing this Consent Decree or other enforcement related costs….” Consent Decree at ¶5.
All of the costs EPA incurred and billed to the parties since the entry of the Consent Decree fall
within this definition, with the noted exception.

         Region 9 is therefore willing to exclude from its next oversight bill the time spent on the
subject of green building practices (approximately two hours or $129.22). The potentially
responsible parties (PRPs) should remain responsible for all other costs charged to the Site in the
last three years.

OIG RESPONSE 1

Region 9 agreed to exclude from its oversight bill the time spent on the subject of green building
practices. The Region calculates these costs to be $129.22 for approximately 2 hours of staff
time. In addition, on November 13, 2008, the Region agreed to remove all charges to the site
account for staff time spent preparing and responding to this OIG review.

During a meeting with the Region to discuss its comments, the Region disagreed that oversight
costs should apply to activities linked to the 1991 ROD requirements and that the definition of
oversight costs in the 1994 consent decree is broad. Based on our review of the Region’s
comments, Recommendation 1 was modified, as follows:

Recommendation 1: Identify and withdraw all past charges that are inconsistent with the
meaning of “oversight costs” as defined in the 1994 consent decree. These include, but may not
be limited to charges for “green building practices” discussions and charges associated with
Region 9 staff time spent preparing for and responding to OIG reviews of these matters.

On March 6, 2009, the OIG received confirmation that Region 9 removed staff time charged for
preparing and responding to the OIG review (93.75 hours). The Region needs to provide the
dollar value of the 93.75 hours in its 90-day response. On March 24, 2009, Region 9 informed
the OIG that the Region plans to issue a credit to the responsible parties in the next bill for the
2 hours charged for “green building practices” discussion, but a definite date was not provided.
The Region needs to provide a completion date for this action in its 90-day response.

Based on our review of the Region’s comments, the OIG added Recommendation 2 as follows:

Recommendation 2: Develop and implement procedures to ensure that all Region 9 staff that
charge time to the Site consistently and appropriately charge oversight costs based on criteria in
cost recovery agreements and adhere to Agency guidance on oversight and billing of responsible
parties.

The Region plans to address Recommendation 2 in its 90-day response. As such, the status of
the Region’s corrective actions for this recommendation is undecided with resolution efforts in
progress.



                                                 9
                                                                                                   09-P-0131




OIG Recommendation 2: Amend the 1991 ROD for the CTS Printex Site as recommended in the
2005 Five-Year Review.

        Region 9 is, in fact, planning to amend the 1991 Record of Decision (ROD) and had set a
target date in CERCLIS for completing the amendment: fourth quarter of the 2010 fiscal year.
Note, however, that this date was based on a projection that the PRPs would complete a Focused
Feasibility Study by September 30, 2009; however, the PRPs are not on track to meet that target.
Region 9 will again articulate the path forward with the PRPs, consistent with the
recommendation from the 2005 Five-Year Review to reevaluate the effectiveness of the remedy
and set a new due date for the Focused Feasibility Study (FFS) of second quarter 2010 and for
the ROD amendment of fourth quarter 2011.

        In October 2006, the party conducting remedial work at the Site, CTS Corporation (CTS),
submitted a draft Focused Feasibility Study for the CTS Printex Site which suggested there were
no viable alternatives to the existing remedy, dismissed in-situ technologies as harmful to the
environment and difficult to implement, and recommended adoption of a “No Further Action”
decision in place of an amended remedy. Region 9 provided comments to CTS by
teleconference in January 2007. In March 2007, CTS submitted a revised draft Focused
Feasibility Report and Technical Impracticability Evaluation which did not address our
comments and contained the same flaws as the original draft. In addition, the revised document
stated on page 35 “that with the completion of the revised FFS all response actions under the
ROD and Board Order have been completed” and requested “that the Site be considered for a TI
[Technical Impracticability] Waiver and subsequent deletion from the NPL.” EPA disagreed
with these conclusions and advised CTS that a technical impracticability waiver required further
investigation and analysis.

        In January 2008, EPA received the 2007 Annual Groundwater Monitoring Report, which
suggested that contaminant concentrations were at or near the cleanup goals throughout the Site,
a substantial decrease from 2006 contaminant concentrations. To confirm these results, Region 9
requested additional sampling on a more frequent basis. CTS did not respond to this request. In
March 2008, the developer offered to conduct quarterly sampling but CTS denied the developer
and its contractor access to the Site monitoring wells. According to the developer, the CTS
representative stated that, beyond its annual groundwater sampling and reporting activities, CTS
does not intend to perform additional work at the Site.

        On January 30, 2009, EPA received the 2008 Annual Groundwater Monitoring Report
from CTS Corporation. The Report shows Site cleanup goals have not been met. In fact,
contaminant concentrations have returned to pre-2007 levels. EPA will therefore require that the
Site PRPs prepare a revised Focused Feasibility Study, consistent with previous EPA comments.
The purpose of the revised FFS is to evaluate alternative remediation technologies, including and
in addition to groundwater extraction and treatment or monitored natural attenuation (MNA). As
long as groundwater contamination remains above cleanup goals, EPA guidance directs parties
seeking a TI waiver to evaluate – and likely implement – an alternative technology(ies)2.

2
 Guidance for Evaluating the Technical Impracticability of Ground-Water Restoration (EPA 540-R-93-080),
October 1993.


                                                     10
                                                                                         09-P-0131




        If the FFS demonstrates that no technology can meet the cleanup goals in a reasonable
amount of time, EPA may determine that achievement of those goals – based on the federally-
mandated maximum contaminant levels for drinking water sources – is technically impracticable
at the Site and issue a TI waiver of those requirements. In that case, Region 9 would document
its waiver through a ROD amendment. Procedurally, a ROD amendment must be preceded by a
Proposed Plan, issued for public comment; the amended remedy would then depend on input
from the public and state regulatory agencies, as well as the data gathered between now and then.
The ROD amendment would likely include the following elements:

   -   Discussion of the new remedy, if one is selected;
   -   Selection of Institutional Controls to prevent human exposure to contaminated
       groundwater and to mitigate potential risks of vapor intrusion;
   -   Remedial Action Objectives that address the new residential use of the property;
   -   Additional remedial action(s) involving in-situ treatment technology; and
   -   A Technical Impracticability (TI) waiver, if appropriate.

If the ROD amendment includes a TI waiver, Region 9 could begin the delisting process by
preparing a site completion report and then a Final Close Out Report (FCOR).

OIG RESPONSE 2

Region 9 agrees that a ROD amendment is necessary and plans to amend the ROD after the
PRPs conduct a revised Focused Feasibility Study. The Region stated that the fourth quarter of
2011 is the estimated milestone completion date for the ROD amendment. The Region provided
information explaining why this milestone date has been selected; it stated that earlier milestones
were missed and described delays due to lack of PRP cooperation and responsiveness. OIG
believes the ROD amendment schedule needs to be accelerated rather than delayed further. We
have revised our recommendation to reflect this and the need for improved management from the
Region on this matter.

During a meeting with the Region to discuss its comments, the Region committed to take over
responsibility for the work necessary to issue two planned ROD amendments at the CTS Printex
Site. OIG revised and renumbered Recommendation 2 as follows:

Recommendation 3: Amend the 1991 ROD for the CTS Printex Site as recommended in the
2005 Five-Year Review.

The Region provided estimated milestone completion dates for Recommendation 3. June 30,
2010, is the target date for issuing the first ROD amendment. This first amendment will address
the changed land use, the potential vapor intrusion risk, and the need for new institutional
controls. March 30, 2011, is the target date for the second ROD amendment, and it will address
the groundwater remedy. At our request, Region 9 also provided interim milestone dates for
completing activities that lead up to issuing the ROD amendments. These dates may be subject
to change. Prior to the June 30, 2010, amendment, the Region plans to issue a feasibility study


                                                11
                                                                                       09-P-0131


on December 15, 2009, and a proposed plan on January 10, 2010. Prior to the March 30, 2011,
amendment, the Region plans to issue a feasibility study on September 1, 2010, and a proposed
plan on October 30, 2010. These proposed actions meet the intent of the OIG’s
recommendation. Recommendation 3 is open with agreed-to actions pending.

Based on the Region’s commitment to assume responsibility for the ROD amendment work, the
OIG added Recommendation 4 as follows:

Recommendation 4: Review Agency policies and procedures in order to properly and timely
recover the government's costs from all appropriate parties associated with the ROD amendment
work.

The Region plans to address Recommendation 4 in its 90-day response. As such, the status of
the Region’s corrective actions for this recommendation is undecided with resolution efforts in
progress.



      Please feel free to contact me at (415) 972-3840 or Rich Hennecke, Regional Audit
Follow-up Coordinator, at (415) 972-3760.

Attachment




                                               12
                                                                                               09-P-0131


                                            Attachment


Table 1 Specific Comments

Number     Report Statement/           Report            Region 9 Comment             OIG Response
               Finding                Reference
   1     Region 9 has not taken     At a Glance,       Region 9 has taken          See OIG Response 2.
         appropriate steps to       Para. 3, page 1    appropriate steps to
         evaluate the need for a                       evaluate the need for a     As stated in the
         ROD amendment, or to                          ROD amendment, and          Region’s response, a
         amend the 1991 ROD                            has outlined for the        ROD amendment is
         despite significant                           PRPs a plan to move         required to ensure that
         remedy and land use                           forward on the Site.        necessary controls to
         changes at the site.                          This plan is consistent     prevent human
         New human health                              with recommendations        exposure to
         risks have been                               from the 2005 Five Year     contaminated
         identified (vapor                             Review and current site     groundwater and to
         intrusion) that were not                      conditions. To date, the    address vapor
         addressed in the 1991                         PRPs have asserted that     intrusion risks are in
         ROD.                                          additional work at the      place. A ROD
                                                       Site is not needed. EPA     amendment has not
                                                       disagrees and will          been completed,
                                                       require the PRPs to         although residents
                                                       conduct a revised FFS,      moved into the
                                                       as the next step toward a   housing units atop the
                                                       ROD amendment. If           Superfund site and
                                                       necessary, EPA will         more are scheduled to
                                                       take enforcement            move in during the
                                                       actions to move the Site    coming months.
                                                       toward Site completion.     Region 9 has not
                                                                                   followed the
                                                       Although the Region
                                                                                   requirements needed
                                                       has not completed a
                                                                                   to ensure that the site
                                                       ROD amendment for the
                                                                                   is safe for humans and
                                                       Site, we have taken
                                                                                   the environment.
                                                       actions to protect human
                                                       health and the
                                                       environment, while also
                                                       allowing for beneficial
                                                       reuse of the site. We
                                                       have worked with
                                                       developers to take
                                                       precautionary mitigation
                                                       measures as appropriate
                                                       to minimize potential
                                                       risks for future
                                                       residents.




                                                  13
                                                                                                09-P-0131


Number     Report Statement/           Report            Region 9 Comment              OIG Response
               Finding                Reference
  2      In 1994, Region 9 and      Background,        The consent decree did      Agree. The sentence
         the responsible parties    Para. 3, page 2    not distinguish between     has been modified, as
         entered into a consent                        the PRPs’                   follows:
         decree that generally                         responsibilities. For
                                                                                   “In 1994, Region 9
         characterized the clean-                      clarification, “CTS was
                                                                                   and the responsible
         up and oversight costs                        responsible” should be
                                                                                   parties entered into a
         for which CTS was                             replaced with “CTS and
                                                                                   consent decree that
         responsible.                                  ADN were responsible.”
                                                                                   generally
                                                                                   characterized the
                                                                                   clean-up and oversight
                                                                                   costs for which the
                                                                                   responsible parties
                                                                                   were accountable.”

  3      Due to limitations in      Scope and          Region 9 billed its         OIG has been unable
         the way Region 9 bills     Methodology,       oversight costs in          to independently
         its oversight costs, we    page 3             accordance with OCFO        verify the Region’s
         were unable to quantify                       (Office of Chief            assertion. The
         inappropriate charges.                        Financial Officer)          sentence has been
                                                       Resource Management         modified, as follows:
                                                       Directive 2550 Part D,
                                                                                   “The documentation
                                                       Chapter 12 (07/25/1988
                                                                                   we received did not
                                                       and currently being
                                                                                   allow us to quantify
                                                       updated) and Superfund
                                                                                   inappropriate
                                                       Cost Recovery
                                                                                   charges.”
                                                       Documentation
                                                       Procedures Manual
                                                       (1994).

  4      EPA Region 9               Results of         Region 9 staff billed a     “Other activities” refer
         inappropriately charged    Review,            limited amount of time      to any and all Region 9
         the responsible parties    Para.1, page 3     – approximately 2 hours     oversight of remedial
         for oversight that was                        – discussing green          actions that do not
         related to “greening”                         building practices with     pertain specifically to
         efforts and other                             the developer. Region 9     ensuring that the site
         activities that do not                        will subtract this time,    remedy is protective.
         pertain to the 1991                           approximately $129.22,      The Region also
         ROD                                           from its bill.              agreed to remove site
                                                                                   account charges
                                                       We could not identify
                                                                                   associated with its
                                                       any charges for “other
                                                                                   time preparing for and
                                                       activities” that had been
                                                                                   responding to this
                                                       inappropriately charged.
                                                                                   review.
                                                       Region 9 suggests that
                                                       this language be            See OIG Response 1.
                                                       removed from the
                                                       report.




                                                  14
                                                                                                  09-P-0131


Number     Report Statement/           Report              Region 9 Comment              OIG Response
               Finding                Reference
  5      In addition, land use      Results of           The land use remained        Agree. The change
         had changed at the site    Review, Para.        commercial/industrial        has been made to the
         from                       2, page 4            until 2006. Replacing        report.
         commercial/industrial                           “In addition” with “In
         to residential.                                 2006” would create a
                                                         clearer chronology.

  6      Vapor intrusion was        Results of           The following would be       OIG generally agrees.
         identified as a risk       Review,              a more accurate              We have modified the
         associated with            Para.1, page 4       description of the           sentence as follows:
         residential use, and                            chronology: “In 2005,
                                                                                      “In 2005, during the
         vapor intrusion                                 EPA (in the Five Year
                                                                                      Five-Year Review,
         mitigation systems                              Review) and the
                                                                                      Region 9 identified
         were incorporated into                          prospective developer
                                                                                      vapor intrusion as a
         construction of the new                         (in its Phase I/II
                                                                                      risk associated with
         residences.                                     Environmental Site
                                                                                      residential use, and
                                                         Assessment), identified
                                                                                      vapor intrusion
                                                         vapor intrusion as a
                                                                                      mitigation systems
                                                         potential risk associated
                                                                                      were incorporated into
                                                         with residential use. In
                                                                                      construction of the
                                                         response to this
                                                                                      new residences.”
                                                         potential risk – and in
                                                         accordance with EPA’s
                                                         “reasonable steps” letter
                                                         (dated June 27, 2006) –
                                                         the developer
                                                         incorporated vapor
                                                         intrusion mitigation
                                                         systems into
                                                         construction of the new
                                                         residences.” Region 9
                                                         believes this
                                                         precautionary mitigation
                                                         measure was
                                                         appropriate to minimize
                                                         potential risks for future
                                                         residents.

  7      The Region does not        Results of           In 2006, the Region          During our field work,
         currently have specific    Review,              presented to the PRPs        the Region did not
         milestone dates for        Para.2, page 4       its plan for a path          inform the OIG of its
         starting or completing a                        forward for future           planned milestone
         ROD amendment.                                  actions at the Site. As      completion date for the
                                                         part of that effort, the     ROD amendment,
                                                         Region established in        although the OIG
                                                         CERCLIS a milestone          asked for a date.
                                                         date for completing a        However, the OIG will
                                                         CTS Printex ROD              modify the report to


                                                    15
                                                                                           09-P-0131


Number     Report Statement/        Report            Region 9 Comment            OIG Response
               Finding             Reference
                                                    amendment: September       reflect the date on
                                                    30, 2010. The Region       which the Region has
                                                    will set a new date,       now informed us.
                                                    September 30, 2011,
                                                    based on completion of
                                                    a revised FFS by the
                                                    PRPs. Please refer to
                                                    the enclosed letter for
                                                    discussion of this
                                                    timeline.

  8      Region 9 has not        Results of         Region 9 has complied      Disagree.
         followed Agency         Review,            with, and will continue
                                                                               A site remedy
         guidance in managing    Para.2, page 4     to comply with, Agency
                                                                               modification occurred
         the remedy change at                       guidance with respect to
                                                                               in 1996 when
         the CTS Printex site.                      modifying the remedy.
                                                                               RWQCB terminated
                                                    When the Site became       the groundwater
                                                    EPA-lead in 2006, the      extraction system in
                                                    Region presented its       favor of MNA.
                                                    plan for proceeding        Agency guidance
                                                    toward a ROD               classifies MNA as a
                                                    amendment to both the      contingency remedy
                                                    PRPs and the State.        that, if not well
                                                    There was not sufficient   documented in the
                                                    information to support a   ROD, may require an
                                                    change in remedy to        amendment to the
                                                    MNA. In the absence of     ROD to invoke at a
                                                    such evidence, the         later time. The 1991
                                                    Region had the PRPs        ROD neither detailed
                                                    prepare an FFS that        MNA as a contingency
                                                    evaluated alternative      remedy nor provided
                                                    technologies (in-situ      criteria for its
                                                    treatments), MNA, and      selection. Region 9
                                                    continued groundwater      did not amend the
                                                    extraction and             ROD in 1996 or in
                                                    treatment. Although the    subsequent years to
                                                    PRPs have submitted        document this
                                                    two version of an FFS,     significant
                                                    they did not provide       modification in site
                                                    adequate data and          remedy (as
                                                    analysis for EPA to        recommended by
                                                    prepare a ROD              Agency guidance).
                                                    amendment. The
                                                                               In 2006, Region 9
                                                    current planned
                                                                               missed another
                                                    schedule is to require
                                                                               opportunity to amend
                                                    the PRPs to conduct a
                                                                               the ROD when the
                                                    revised FFS by second
                                                                               land use at the site
                                                    quarter 2010. EPA
                                                                               changed from


                                               16
                                                                                                09-P-0131


Number     Report Statement/           Report            Region 9 Comment              OIG Response
               Finding                Reference
                                                       would follow with a          commercial/industrial
                                                       ROD amendment by             to residential. As part
                                                       fourth quarter 2011.         of the land use change,
                                                                                    the 2005 Five-Year
                                                       Further, in the interim,
                                                                                    Review report
                                                       EPA worked with the
                                                                                    recommended that
                                                       PRPs and the developer
                                                                                    Region 9 amend the
                                                       to allow for productive
                                                                                    ROD to address
                                                       and protective reuse of
                                                                                    modifications to the
                                                       the Site.
                                                                                    remedy per the land
                                                                                    use change.
                                                                                    Region 9 has not
                                                                                    complied with Agency
                                                                                    guidance, which
                                                                                    stresses the importance
                                                                                    of transparency in
                                                                                    Superfund site-related
                                                                                    decision making.
                                                                                    See also OIG
                                                                                    Response 2

  9      However, as of             Results of         On January 30, 2009,         During our field work,
         December 2008,             Review,            EPA received the 2008        the Region did not
         Region 9 had not           Para.5, page 5     Annual Groundwater           inform the OIG of its
         initiated or executed a                       Monitoring Report from       planned milestone
         ROD amendment. In                             CTS Corporation. The         completion date for the
         response to an OIG                            Report shows Site            ROD amendment,
         request in December                           cleanup goals have not       although the OIG
         2008, Region 9                                been met. In fact,           asked for a date.
         identified a number of                        contaminant
                                                                                    However, the OIG will
         actions they plan to                          concentrations have
                                                                                    modify the report to
         take before initiating a                      returned to pre-2007
                                                                                    reflect the date on
         ROD amendment.                                levels. EPA will
                                                                                    which the Region has
         However, the Region                           therefore require that the
                                                                                    now informed us.
         did not provide a                             Site PRPs complete a
         specific or estimated                         revised Focused              See also OIG
         milestone when a ROD                          Feasibility Study,           Response 2.
         amendment would be                            consistent with previous
         started and completed.                        EPA comments.
                                                       EPA will then issue for
                                                       public comment a
                                                       Proposed Plan to amend
                                                       the remedy. The ROD
                                                       amendment planned
                                                       completion date is
                                                       fourth quarter 2011.




                                                  17
                                                                                               09-P-0131


Number     Report Statement/           Report            Region 9 Comment             OIG Response
               Finding                Reference
  10     …Region 9 has not          Conclusions,       Region 9 has taken          See OIG Response 2
         taken appropriate steps    Para.2, page 6     appropriate steps to        and response to
         to evaluate the need for                      evaluate the need for a     Comment 1.
         a ROD amendment, or                           ROD amendment, and
         amend the 1991 ROD                            has outlined for the        As stated in the
         despite significant                           PRPs a plan to move         Region’s response, a
         remedy and land use                           forward on the site.        ROD amendment is
         changes at the CTS                            This plan is consistent     required to ensure that
         Printex Site.                                 with recommendation         necessary controls to
                                                       from the 2005 Five Year     prevent human
                                                       Review and current site     exposure to
                                                       conditions. To date, the    contaminated
                                                       PRPs have asserted that     groundwater and to
                                                       additional work at the      address vapor
                                                       Site is not needed. EPA     intrusion risks are in
                                                       disagrees and will          place. A ROD
                                                       require the PRPs to         amendment has not
                                                       conduct a further FFS,      been completed,
                                                       as the next step toward a   although residents
                                                       ROD amendment. If           moved into the
                                                       necessary, EPA will         housing units atop the
                                                       take enforcement            Superfund site and
                                                       actions to move the Site    more are scheduled to
                                                       toward Site completion.     move in during the
                                                                                   coming months.

  11     Procedures for assuring    Conclusions,       Although the Region         OIG concurs that the
         that the site’s remedial   Para.2, page 6     has not completed a         site developer has
         actions provide long-                         ROD amendment for the       completed a Human
         term safety and                               site, we have taken         Health Risk
         protection were                               actions to protect human    Assessment. We also
         recommended in the                            health and the              stated in our report
         site’s 2005 Five-Year                         environment, while also     that the site developer
         Review but have not                           allowing for beneficial     has put a vapor
         been implemented.                             reuse of the site.          intrusion mitigation
                                                                                   system in place. These
                                                       Region 9 worked with
                                                                                   actions appear to be
                                                       the interested parties to
                                                                                   minimally necessary
                                                       conduct a Human
                                                                                   and reasonable steps
                                                       Health Risk Assessment
                                                                                   that should have been
                                                       (HHRA), where a
                                                                                   taken. The
                                                       potential human health
                                                                                   developer’s work on
                                                       risk (vapor intrusion)
                                                                                   the site does not waive
                                                       was identified and
                                                                                   requirements for the
                                                       consequently addressed
                                                                                   Region to complete a
                                                       (implementation of sub-
                                                                                   ROD amendment.
                                                       slab vapor barriers and
                                                       sub-slab passive            See also OIG
                                                       depressurization system)    Response 2.


                                                  18
                                                                                               09-P-0131


Number     Report Statement/           Report            Region 9 Comment             OIG Response
               Finding                Reference
                                                       which allowed the
                                                       redevelopment to occur
                                                       in a timely and safe
                                                       manner with out holding
                                                       it up for the full RODA
                                                       process.

  12     New human health           Conclusions,       The sentence should        The Human Health
         risks have been            Para.2, page 6     read as follows: “New      Risk Assessment
         identified (vapor                             potential human health     conducted at the site
         intrusion) that were not                      risks have been            states that the risk
         addressed in the 1991                         identified (vapor          assessment for vapor
         ROD.                                          intrusion) that were not   intrusion falls within
                                                       addressed in the 1991      the EPA
                                                       ROD.                       Trichloroethylene
                                                                                  toxicity criteria.
                                                       Although the Region
                                                                                  Therefore, it is
                                                       has not completed a
                                                                                  misleading to state that
                                                       ROD amendment for the
                                                                                  vapor intrusion is a
                                                       Site, we have taken
                                                                                  potential rather than an
                                                       actions to protect human
                                                                                  actual human health
                                                       health and the
                                                                                  risk.
                                                       environment, while also
                                                       allowing for beneficial
                                                       reuse of the site. We
                                                       have worked with
                                                       developers to take
                                                       precautionary mitigation
                                                       measures as appropriate
                                                       to minimize potential
                                                       risks for future
                                                       residents.




                                                  19
                                                                                   09-P-0131


                                                                               Appendix B

                                    Distribution

Office of the Administrator
Acting Regional Administrator, Region 9
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting General Counsel
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Region 9
Acting Inspector General




                                             20
